No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE AMERICAN BAR ASSOCIATION AS
AMICUS CURIAE IN
SUPPORT OF RESPONDENTS

DOUGLAS HALLWARD-DRIEMEIER
EMERSON SIEGLE
ALEXANDRA KANDALAFT
MICHAEL SHEEHAN
ROPES & GRAY LLP
2099 Pennsylvania Ave., NW
Washington, DC 20006

JUDY PERRY MARTINEZ
Counsel of Record
AMERICAN BAR ASSOCIATION
321 N. Clark Street
Chicago, IL 60654
(312) 988-5000
abapresident@americanbar.org

TABLE OF CONTENTS
Page
Interest of amicus ................................................................ 1
Summary of the argument ................................................. 3
Argument:
I.

The City is permitted to insist that private
entities contracting to carry out government
programs comply with conditions central to
those programs ....................................................... 4
A. The City of Philadelphia permissibly
requires parties contracting to perform
foster care services on behalf of the City to
comply with the program’s terms, including
not to exclude suitable foster parents on the
basis of characteristics unrelated to child
welfare, such as sexual orientation .............. 4
B.

In addition to protecting the interests of
children, the City’s nondiscrimination policy
furthers the City’s permissible policy goal
of eliminating unequal treatment of LGBTQ
couples in the context of the City’s own
programs ........................................................ 10

C.

Requiring a private agency to abide by the
terms of its contract with the City that are
central to the City’s program does not
violate that party’s First Amendment
rights .............................................................. 14

II. An alternative ruling would have dramatic
implications, including for the protection of
religious minorities .............................................. 19
Conclusion........................................................................... 21
(I)

II
TABLE OF AUTHORITIES

Page(s)
Cases:
Agency for Int’l Dev’t v. Alliance for Open
Society Int’l, Inc., 570 U.S. 205 (2013) ........ passim
Bostock v. Clayton Cnty., 140 S. Ct. 1731 (2020) ..... 11
Bowen v. Roy, 476 U.S. 693 (1986) ............................. 13
Emp. Div. v. Smith, 494 U.S. 872 (1990).................... 19
Espinoza v. Montana Department of Revenue,
140 S. Ct. 2246 (2020) ........................................ 17, 18
Heart of Atlanta Motel, Inc. v. United States, 379
U.S. 241 (1964) ................................................... 11, 20
Legal Servs. Corp. v. Velazquez, 531 U.S. 533
(2001) ................................................................... 15, 17
Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988) .................................................. 15
Obergefell v. Hodges, 576 U.S. 644 (2015) ............ 11, 19
Regan v. Taxation With Representation of
Wash., 461 U.S. 540 (1983) ..................................... 15
Rust v. Sullivan, 500 U.S. 173 (1991)............. 13, 14, 17
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017) ................................ 18
United States v. Windsor, 570 U.S. 744 (2013) ......... 12
West Va. State Bd. of Educ. v. Barnette, 319 U.S.
624 (1943) .................................................................. 16
Constitution and Statutes:
U.S. Const. Amend. I........................................... passim

III
Statutes—Continued:

Page(s)

11 Pa. Cons. Stat. § 2633 .......................................... 5, 19
42 U.S.C. § 671 ................................................................. 9
23 Pa. Cons. Stat. § 6344 ................................................ 6
23 Pa. Cons. Stat. § 6344(d) ........................................... 5
Phila. Code § 9-1106 ........................................................ 6
55 Pa. Code § 3700.62 et seq. .......................................... 5
Miscellaneous:
Am. Bar Ass’n,
Report Recommending the Adoption of
Resolution 102 (2006) ....................................... 3, 7
Report Recommending the Adoption of
Resolution 104B (2007) ........................................ 8
Report Recommending the Adoption of
Resolution 109B (1999) ........................................ 3
Report Recommending the Adoption of
Resolution 113 (2019) ....................... 2, 7, 8, 10, 17
Report Recommending the Adoption of
Resolution 118 (2019) ......................................... 17
Am. Psychiatric Ass’n, Resolution on Sexual
Orientation, Gender Identity, Parents and
their Children (2020) ................................................ 7
Catholic Social Services: Adoption,
http://adoption-phl.org ........................................... 19
Dep’t of Health & Human Servs., ACYF-CB-IM20-06, Foster Care as a Support to Families
(Apr. 29, 2020) ............................................................ 5

IV
Miscellaneous—Continued

Page

Letter from The LGBTQIA+ & Two Spirit
Foster Alumni & Advocate Team to Alex
Azar & Jennifer Moughalian, Secretary and
Acting Assistant Secretary for Financial
Resources, Dep’t of Health & Human Servs.
(Dec. 3, 2019), https://www.familyequality.
org/wp-content/uploads/2019/12/LGBTQIATwo-Spirit-Foster-Alumni-Advocate-TeamLetter-to-HHS-12.3.19-1.pdf ................................... 9

In the Supreme Court of the United States
NO. 19-123
SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, ET AL.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE AMERICAN BAR
ASSOCIATION AS AMICUS CURIAE IN
SUPPORT OF RESPONDENTS
INTEREST OF AMICUS1
Amicus Curiae the American Bar Association
(ABA) is the largest voluntary association of lawyers in
the world. The ABA is committed to eliminating bias,
enhancing diversity, and advancing the rule of law
throughout the United States and around the world.
The ABA has significant experience in both child
welfare law and First Amendment issues. The ABA

1

The parties have consented to the filing of this brief, either by blanket consent filed with the Clerk or individual consent. No counsel
for any party authored this brief in whole or in part, and no person
or entity, other than amicus curiae or its counsel made a monetary
contribution intended to fund the preparation or submission of this
brief.

(1)

2
Center on Children and the Law, which has promoted
access to justice for children and families since 1978, is a
thought leader in the child welfare field, which encompasses foster care placement and foster parent licensing.
Throughout the country, the Center collaborates with
state and local government agencies responsible for caring for children in foster care. The primary goal for most
children in foster care is reunification between a child
and birth family. Other case goals include guardianship
and adoption. The Center works with these government
agencies to promote children’s best interests both while
in care and when safely exiting foster care to reunification, guardianship, adoption, or other permanency options. The Center also works to elevate legal representation quality for all parties in child welfare cases, and
partners with the judicial community and others to ensure the child welfare court system meets children and
families’ needs.
The ABA has long advocated that the State exercise
its responsibility to care for foster children in a diligent,
fair manner. To promote the best interests of children,
the ABA has also long advocated policies that ensure
there is no invidious discrimination in the administration
of foster care systems that would be adverse to the interests of children in foster care. As such, the ABA opposes laws, regulations, and rules or practices that discriminate against Lesbian, Gay, Bisexual, Transgender,
and Queer (LGBTQ) individuals in the exercise of the
fundamental right to parent, Am. Bar Ass’n, Report
Recommending the Adoption of Resolution 113 (2019),
opposes legislation that prohibits, limits, or restricts
placement into foster care of any child on the basis of
sexual orientation of the proposed foster parent, Am.

3
Bar Ass’n, Report Recommending the Adoption of Resolution 102 (2006), and supports enactment of laws and
public policies that provide that sexual orientation shall
not be a bar to adoption when adoption is in the best interest of the child, Am. Bar Ass’n, Report Recommending the Adoption of Resolution 109B (1999).
SUMMARY OF THE ARGUMENT
In administering its foster care program, the City of
Philadelphia has barred discrimination in the identification of prospective foster families on the basis of factors
that are irrelevant to potential foster parents’ suitability, including their sexual orientation. The City achieves
at least two important and distinct aims through this policy. First, the City ensures that the foster children in its
care, particularly those from more vulnerable populations, have the best chance of finding suitable and loving
homes. Second, the City furthers its additional interest
in avoiding exposing same-sex couples to the harms associated with unequal treatment in City programs carried out with City funds.
The City’s decision to hold its contractual partners
to its nondiscrimination policies falls squarely within the
scope of its program, and is consistent with this Court’s
holdings in Agency for Int’l Development v. Alliance for
Open Society Int’l, Inc., 570 U.S. 205 (2013) (AOSI), and
other cases concerning the government’s ability to attach conditions to participation in government programs
that are germane to the programs themselves. Allowing
a private agency that has voluntarily contracted with
the City to violate the City’s nondiscrimination policy
while it is performing a governmental function, directly
hinders central goals of the City’s foster care program,

4
which is to serve the best interests of children, and to do
so without subjecting historically marginalized groups
to further harm in the context of a City funded program.
A ruling in favor of petitioners would not only be adverse to the City’s determination that its policy is in the
interests of the children in its care, but also potentially
subject minority groups, including religious minorities,
to adverse treatment in the administration of government programs, whenever the governmental entity administers the program through private contractors. By
weakening the protections a governmental entity can afford minorities in the administration of governmental
programs, petitioners’ arguments would ultimately
harm both religious minorities and others who depend
on predictability in the administration of those programs, including the children in foster care whose interests should be the central focus of this case.
ARGUMENT
I.

THE CITY IS PERMITTED TO I NSIST THAT PRIENTITIES CONTRACTING TO CARRY OUT
GOVERNMENT PROGRAMS COMPLY W ITH CONDITIONS C ENTRAL T O T HOSE P ROGRAMS

VATE

A. The City of Philadelphia permissibly requires
parties contracting to perform foster care
services on behalf of the City to comply with
the program’s terms, including not to exclude
suitable foster parents on the basis of characteristics unrelated to child welfare, such as
sexual orientation
As the U.S. Department of Health and Human Services recently explained, “[f]oster care exists to protect

5
children from abuse or neglect occurring in their own
homes.” Dep’t of Health & Human Servs., ACYF-CBIM-20-06, Foster Care as a Support to Families 3 (Apr.
29, 2020). Foster care is intended to be a temporary situation, and state and local governments are encouraged
to structure their foster care programs “as a support for
families in a way that mitigates the trauma of removal
for the child and parents, expedites safe and successful
reunification, and improves parent and child well-being
outcomes.” Id. at 1.
As part of the foster care system, Pennsylvania, like
every other state, has an obligation to act in the best interests of the children in its custody. See, e.g., 11 Pa.
Cons. Stat. § 2633. The Commonwealth of Pennsylvania
has “charged individual county agencies with the duty of
establishing a system to address the well-being of these
children consistent with the best interests of each child.”
Pet. App. 56a. Each locality therefore has a legal responsibility to administer local foster programs in a manner
that fulfills the State’s duty of care to act in the best interests of children in foster care.
The City of Philadelphia, through a highly regulated
state process, takes children who have suffered abuse or
neglect into the City’s custody, and requires that private
parties performing government functions pursuant to
contract assess potential foster parents against a range
of detailed criteria to ensure that children are fostered
in loving and supportive homes. See 23 Pa. Cons. Stat. §
6344(d); 55 Pa. Code § 3700.62 et seq. Since the 1950s, the
City has contracted with private agencies to help carry
out the City’s foster care obligations in a manner that
safeguards and promotes the interests of these children.
Each private agency must be licensed by Pennsylvania,

6
and must comply with the State’s child welfare laws and
regulations. See 23 Pa. Cons. Stat. § 6344. The City partially outsources this governmental function due to resource constraints, and in order to ensure that the large
number of children in foster care each receive the appropriate level of care. The City’s contracts with these private foster care agencies call for the agencies to “recruit,
screen, train, and provide certified resource care homes”
that meet the standards of eligibility established by
Pennsylvania Law.” Pet. App. 76a (internal citations
and quotations omitted).
The City’s foster program incorporates the City’s
Fair Practices Ordinance (the FPO). The FPO prohibits
providers of public accommodations from denying them
to an individual or otherwise discriminating based on the
individual’s protected characteristics, including sexual
orientation. Phila. Code § 9-1106. The City’s Services
Contract includes this prohibition, thereby ensuring that
private foster agencies, in performing under the Contract, do not turn away an otherwise qualified foster parent on the basis of the individual’s protected characteristics.2

2

The Services Contract reads (Supp. J.A. 18-19), in pertinent

part:
This Contract is entered into under the terms of the Charter [and] the Fair Practices Ordinance (Chapter 9-1100 of
the Code) * * *. Provider shall not discriminate or permit
discrimination against any individual because of race,
color, religion or national origin. Nor shall Provider discriminate or permit discrimination against individuals
in * * * public accommodation practices whether by direct
or indirect practice of exclusion, distinction, restriction,
segregation, limitation, refusal, denial, differentiation or

7
The City has good reason for including these protections in its contracts with foster care agencies: “optimal
development for children is based not on the sexual orientation of the parents, but on stable attachments to
committed and nurturing adults.” Am. Bar Ass’n, Report Recommending the Adoption of Resolution 102, at
2 (2006) (citing Press Release, Am. Psychiatric Ass’n,
Adoption and Co-Parenting of Children by Same-Sex
Couples, Release No. 0246 (Dec. 13, 2002)). Studies by
leaders in the medical and child development field have
shown that same-sex couples are equally capable as different-sex parents of raising and caring for children, and
that same-sex and different-sex couples display no difference as to parenting skills, attitudes, or emotional
health. See Am. Bar Ass’n, Report Recommending the
Adoption of Resolution 113, at 7 (2019) (citing Judith
Stacey & Timothy J. Biblarz, (How) Does the Sexual
Orientation of Parents Matter?, 66 Am. Soc. Rev. 159
(Apr. 2001); Abbie E. Goldberg & JuliAnna Z. Smith,
Predictors of Parenting Stress in Lesbian, Gay, and
Heterosexual Adoptive Parents During Early
Parenthood, 28 J. Family Psychology 125 (Apr. 2014)).
In short, social science studies confirm that “when compared with heterosexual adults, sexual minority adults
have not been found to substantially differ in their parenting approaches or efficacy in ways that negatively affect children.” Am. Psychiatric Ass’n, Resolution on
preference in the treatment of a person on the basis of * * *
sex, sexual orientation, gender identity, * * * marital status, * * * familiar [sic] status, * * * or engage in any other
act or practice made unlawful under the Charter * * *.

8
Sexual Orientation, Gender Identity (SOGI), Parents
and their Children 1 (2020).
The City has developed protections to help ensure
that, consistent with social science research and best
practices, the City’s limited funds are used to welcome
all suitable families, thereby opening as many doors as
possible for children in need of good homes. Turning
away suitable parents runs counter to the interests of
children in foster care, and therefore to the purpose of
the City’s foster care program. “[R]estricting the number of potential loving homes on the basis of sexual orientation” reduces the likelihood of a child being placed in
a safe, secure, and lasting environment and is therefore
“arbitrary and harmful to the most vulnerable children.”
Am. Bar Ass’n, Report Recommending the Adoption of
Resolution 113, at 1, 5-6 (2019) (noting LGBT parents are
approximately seven times more likely to be raising
adopted or foster children). The City therefore requires
that private agencies that contract to fulfill these governmental functions on behalf of the City comply with
the nondiscrimination provisions of the contract, which
extend to sexual orientation and gender identity.
This nondiscrimination policy is also important because foster care licensing agencies typically interact
with and have a responsibility to place youth in care.
LGBTQ youth comprise a disproportionately large segment of the foster care population, see Am. Bar Ass’n,
Report Recommending the Adoption of Resolution
104B, at 2 (2007), and if a licensing agency were permitted to discriminate against same-sex couples, the agency
could also fail to support and affirm youth gender identity and sexual orientation in placement decisions. As a
group of young adults who have experienced foster care

9
recently explained, “[w]ithout protections, young people
like us will be placed in homes that reject who we are,
who we love, and what we believe.” Letter from The
LGBTQIA+ & Two Spirit Foster Alumni & Advocate
Team to Alex Azar & Jennifer Moughalian, Secretary
and Acting Assistant Secretary for Financial Resources,
Dep’t of Health & Human Servs. (Dec. 3, 2019),
https://www.familyequality.org/wp-content/uploads/2019/12/LGBTQIA-Two-Spirit-Foster-AlumniAdvocate-Team-Letter-to-HHS-12.3.19-1.pdf.
These
youth already face a high risk of discrimination, abuse,
and rejection from families. Such harm puts them at
higher risk of mental health challenges, substance abuse,
and entry into the juvenile justice system.
Similarly, licensing agencies in Philadelphia are responsible for certifying relative caregivers who seek to
become licensed to care for children in foster care consistent with federal and state laws that prioritize kin
placements. See 42 U.S.C. § 671 (states must “consider
giving preference to an adult relative over a non-related
caregiver when determining placement for a child, provided that the relative caregiver meets all relevant
State child protection standards”). If licensing agencies
were permitted to deny certification for same-sex couples who are otherwise suitable foster parents, that discrimination would also apply to same-sex kin caregivers,
and limit the child’s placement options with extended
family members in contravention of federal and state
placement goals. Similarly, licensing agencies in some
states may also interact with birth parents in facilitating
the child’s placement and exit from foster care. Permitting agencies to discriminate against same-sex foster
parents could have implications for discrimination

10
against LGBTQ birth families in ways that interfere
with reunification goals for a child.
In short, the City’s nondiscrimination policy is core
to the program in question, ensuring not only that the
City identify the largest number of homes possible for
foster children, but also that the interests of these children are served in finding suitable placements for them.
Allowing discrimination would “hurt[] families in a multitude of ways. It deprives foster children of a safe and
stable environment to grow. It deprives those awaiting
adoption [and those adopting] of the strong familial relationship to which they are entitled.” Am. Bar Ass’n, Report Recommending The Adoption of Resolution 113, at
7 (2019). The City may permissibly determine that it is
unwilling to elevate “the personal beliefs of a child services agency or its workers” over the needs of the children in its care. Id. at 5.
B. In addition to protecting the interests of children, the City’s nondiscrimination policy furthers the City’s permissible policy goal of
eliminating unequal treatment of LGBTQ
couples in the context of the City’s own programs
Separate and apart from its desire to ensure that
otherwise qualified foster parents are not turned away
on the basis of their protected characteristics, the City
also has an independent policy goal to eliminate discrimination against LGBTQ couples, including those who
seek to become foster parents. It is permissible for the
City, consistent with its desire to protect the dignity of
LGBTQ Americans—a value that has been recognized as

11
significant by this Court on numerous occasions, including as recently as last term—to insist that a private
agency, if it seeks to avail itself of the City’s funds and
provide a government function, comply with the City’s
express nondiscrimination policy.
The City’s policy is founded in a recognition that
“denial [] of equal access to public establishments” and
services creates a “deprivation of personal dignity,”
Heart of Atlanta Motel, Inc. v. United States, 379 U.S.
241, 250 (1964), and a desire to ensure that the foster
care system it administers does not expose same-sex
couples to potential humiliation and the stigma that they
are somehow unfit to parent, every time they seek to become a foster parent, see, e.g., Obergefell v. Hodges, 576
U.S. 644, 646 (2015). The City’s policy ensures that prospective LGBTQ foster parents do not face the particularly harmful stigma of being rejected as potential foster
parents, based solely on their protected characteristics,
by the City or another party that bears the imprimatur
and public funding of the State.3 In demonstrating the
LGTBQ foster parents are worthy of equal treatment,

3

Notably, while the amicus brief from the United States suggests
that the City’s decision to terminate a contract with Catholic Social
Services (CSS) caused similar harm to individual foster parents who
held licenses through CSS, this is not an apt comparison. U.S. Amicus Br. 30. The providers referenced in the Solicitor General’s brief
are not stigmatized based on their identity, and are free to work
with an alternate agency that agrees to comply with City policy; by
contrast, prospective LGBTQ couples that are turned away necessarily are stigmatized, as they receive the message that a Statefunded party believes they are somehow lesser or that their marriage is invalid.

12
the City also preserves the dignity of LGTBQ children
in the City’s care.
By adopting its policy of nondiscrimination against
LGBTQ persons in carrying out governmental services,
whether directly or through its agents, the City adheres
to a fundamental precept rooted in the Fourteenth
Amendment’s Equal Protection Clause. See, e.g.,
United States v. Windsor, 570 U.S. 744, 772 (2013) (differential treatment “demeans” couples “whose moral
and sexual choices the Constitution protects”); see also
Bostock v. Clayton Cnty., 140 S. Ct. 1731, 1754 (2020).
Regardless, however, of whether the Constitution required the City to adopt this policy of nondiscrimination
as part of its program, there should be no question that
the City may, consistent with the Constitution, adopt a
policy of nondiscrimination with respect to its own programs, and then require compliance with that policy
choice by parties that voluntarily choose to carry out
that governmental program. Indeed, even the Bostock
dissenters recognized the legitimate state interest in respecting the dignity of its citizens. 140 S. Ct. at 1823 (Kavanaugh, J., dissenting) (“[G]ay and lesbian Americans
‘cannot be treated as social outcasts or as inferior in dignity and worth.’ ” (quoting Masterpiece Cakeshop, Ltd.
v. Colorado Civil Rights Comm’n, 138 S. Ct. 1719, 1727
(2018))); see id. at 1783-1784 (Alito, J., dissenting) (recognizing the “humane and generous impulse[]” that motivates a desire for “gay, lesbian, or transgender [Americans] * * * to be treated with the dignity, consideration,
and fairness that everyone deserves”).
While this Court’s precedent makes plain that the
government may not require private parties accepting

13
government funding “pledge allegiance to the Government’s policy,” the government equally plainly may seek
to ensure that recipients do not use government funding
to “undermine the government’s program and confuse
its message.” Agency for Int’l Dev’t v. Alliance for Open
Society Int’l, Inc., 570 U.S. 205, 220 (2013) (AOSI). For
example, in Rust v. Sullivan, this Court rejected the argument that “the restrictions on the subsidization of
abortion-related speech contained in the regulations
[were] impermissible because they condition[ed] the receipt of a benefit * * * on the relinquishment of a constitutional right,” observing that “the Government [was]
not denying a benefit to anyone, but [] instead simply insisting that public funds be spent for the purposes for
which they were authorized.” 500 U.S. 173, 196 (1991).
Where the government pursues a policy goal through
the administration of a public program, it has no obligation to “at the same time fund[] an alternative program
[or viewpoint] which seeks to deal with the problem in
another way,” id. at 193, and is empowered to manage its
“internal affairs” as it sees fit. Bowen v. Roy, 476 U.S.
693, 699 (1986).
Here, the City has chosen, as part of the administration of its foster care program, to require same-sex couples be treated equally to different-sex couples. Although this policy of nondiscrimination furthers the
City’s interest in ensuring optimal outcomes for the children in its care, see pp. 4-10, supra, it also furthers an
independent value that the City seeks to promote. The
Court should reaffirm its longstanding precedent that a
governmental entity may choose, in the administration
of its public programs, to further its legitimate policy

14
goals, including the prohibition of demeaning differential
treatment.
C. Requiring a private agency to abide by the
terms of its contract with the City that are
central to the City’s program does not violate
that party’s First Amendment rights
By insisting that city contractors adhere to the
terms of their contracts in carrying out the City’s obligations to children in its care, Philadelphia is not violating the First Amendment rights of those contractors.
Rather, Philadelphia is simply requiring that any private agency—insofar as that private agency voluntarily contracts to perform a governmental function in
the administration of Philadelphia’s foster care system—act in compliance with the terms of that contract.
This Court’s precedent makes plain that, when private actors choose to accept government funding or
carry out government programs, those participants
must abide by reasonable conditions that define the
scope of the governmental program. “As a general matter, if a party objects to a condition on the receipt of federal funding, its recourse is to decline the funds.” AOSI,
570 U.S. at 214. “The Government can, without violating
the Constitution, selectively fund a program, to encourage certain activities it believes to be in the public interest * * * .” Rust, 500 U.S. at 193. In the specific context
of a First Amendment challenge, the Court has held that
the government remains able to require parties to comply with certain conditions if they wish to voluntarily
participate in government programs, even “when the objection is that a condition may affect the recipient’s exercise of its First Amendment rights.” AOSI, 570 U.S.

15
at 214; see also Regan v. Taxation With Representation
of Wash., 461 U.S. 540, 549 (1983) (“[A] legislature’s decision not to subsidize the exercise of a fundamental
right does not infringe the right, and thus is not subject
to strict scrutiny.”). The First Amendment “is written
in terms of what the government cannot do to the individual, not in terms of what the individual can exact from
the government.” Lyng v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439, 451 (1988) (citation omitted).
Put another way, while the First Amendment is a powerful shield, protecting from governmental infringement
upon core rights absent the most compelling of justifications, this Court’s precedent makes clear that the First
Amendment is not a sword to force the government to
accept private participants’ preferred positions when
the government administers public programs.
In those cases in which the Court has overturned attempts to attach conditions to government funding, the
Court has stressed that the conditions in question compelled private entities to adhere to a governmental policy that “by its very nature affects ‘protected conduct
outside the scope of the [government] funded program.’
” AOSI, 570 U.S. at 218 (emphasis added); see also Legal
Servs. Corp. v. Velazquez, 531 U.S. 533, 542 (2001) (holding that prohibition on lobbying as a condition for funding legal aid group was unconstitutional because the
“program was designed to facilitate private speech, not
to promote a governmental message” (emphasis added)).
In other words, the government may not use funding or
other participation conditions to disfavor private speech
and beliefs unrelated to the government’s own objectives, or to arbitrarily punish those with disfavored
viewpoints. Nothing in this Court’s precedent suggests,

16
however, that the government may not impose reasonable conditions on carrying out a government program,
especially when those conditions are critical to the key
governmental objective underlying the program.
Here, far from being “outside the scope of the [government] funded program,” AOSI, 570 U.S. at 218, the
City’s policy of nondiscrimination in foster care placement is central to the program’s goal of furthering the
best interests of the children in the City’s custody. The
City’s requirements do not impose any restrictions on
the right of any private party to hold sincerely held, religious viewpoints about same-sex relationships. The
City requires only that a private agency comply with
City policy when the agency steps outside its role as a
private actor and chooses to become an extension of the
City, by accepting City funding under a contract to perform City functions. See West Va. State Bd. of Educ. v.
Barnette, 319 U.S. 624, 632 (1943) (persons who “voluntarily enroll * * * may not on ground[s] of conscience refuse [a government program’s] conditions”). Although
the First Amendment would protect private agencies
from an effort by the City to punish them for disagreeing
with the City on issues of LGBTQ equality—conduct
which the record here does not reflect—a private agency
may not use the First Amendment to force the City to
conform to the agency’s policy preferences when the
agency agrees to support the City’s program and to assist in finding stable homes for the children under the
City’s care.
The City’s decision to contract for foster care licensing services only with agencies that do not discriminate
furthers the core goals of the City’s foster care program.

17
The City’s overriding concern in providing foster services is to act in the best interests of the children for
whom the City is responsible to protect and care. See
generally Am. Bar Ass’n, Report Recommending the
Adoption of Resolution 118 (2019). A key element to
serving these interests is to welcome and encourage as
many suitable foster parents as possible to open their
homes to these children. See Am. Bar Ass’n, Report
Recommending the Adoption of Resolution 113, at 1
(2019). As noted on pages 4-10, supra, decades of research show same-sex couples are equally capable as different-sex couples of raising and caring for children. The
City’s determination not to allocate any of its scarce
funds toward contractors who would turn away suitable
parents directly advances the central purpose of the
City’s program.
The City is not, here, “seek[ing] to leverage funding
to regulate speech outside the contours of the program
itself,” AOSI, 570 U.S. at 214-225, or to affect “protected
conduct outside the scope of the [governmentally]
funded program.” Rust, 500 U.S. at 197. Unlike the recipients of government funding in Velazquez, for example, who engaged in purely private representation of indigent clients against the government, petitioners here
are performing public functions on behalf of the government. And, unlike in Espinoza v. Montana Department
of Revenue, 140 S. Ct. 2246, 2262-2263 (2020), in which
this Court struck down a no-aid provision that barred
state aid to religious schools because they were religious, the ordinance and policies in the present case prohibit funding to certain private agencies not based on
their religious status, but on their refusal to carry out
critical terms of the program they have contracted with

18
the City to perform. In other words, participants in the
City’s program are prohibited from discriminating on
certain bases, regardless of the motivation for that discrimination (religious or non-religious).
The City’s policies place no restrictions on private
agencies’ ability to exercise their right to hold and act
upon their religiously-motivated views regarding sexual
orientation, outside the context of contracting for the
City’s own foster care program. Religiously affiliated
private agencies remain free to preach about their opposition to same-sex relationships and marriages, and are
protected against exclusion from government programs
solely on the basis of their religious status, see, e.g., Espinoza, 140 S. Ct. at 2261 (2020); see also Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct.
2012 (2017). Moreover, the City has not issued a blanket
prohibition against religious agencies engaging in public
functions. Such agencies remain free to contract with
the City in other contexts, where they do not object to
performing in compliance with the terms of the contract
in question. For example, the City continues to contract
with CSS for the provision of other types of services, including case management services for youth in the foster
care system, and for the establishment of congregate
care homes. See Pet. App. 16a, 187a; J.A. 208-209, 505.
Private agencies must, however, for so long as they
choose to perform a public function on behalf of the City,
do so in accordance with the City’s nondiscrimination
policies. The City of Philadelphia “takes custody of children who are removed from their homes,” and has a duty
to care for and act in the best interests of these children.
J.A. 85-86, 352-353, 694. The state cannot avoid the duty
it owes to these children simply by shifting their care to

19
private custodians. See, e.g., 11 Pa. Cons. Stat. § 2633
(setting forth duties of the State with respect to children
in foster care).
This case is not, therefore, one that involves a challenge to “a [private] religious adoption agency
declin[ing] to place children with same-sex married couples” or that otherwise may implicate a conflict between
public nondiscrimination laws and private religious principles or conduct. Obergefell, 576 U.S. at 711-712 (Roberts, C.J., dissenting). By way of illustration, while a private agency like CSS must agree to the City’s terms
when contracting to help carry out the City’s foster care
program, CSS’s private adoption program, which involves birth parents choosing to place their infants for
adoption and CSS assisting to find adoptive parents, see
Catholic Social Services: Adoption, http://adoptionphl.org (describing CSS’s private adoption services), is
unaffected by the City’s contractual requirement.
The City’s nondiscrimination policies are core to the
program in question. The First Amendment does not require that the City adjust its policies, which focus on the
best interests of the children in its care, to accommodate
the religious beliefs of private parties that choose to seek
City funding.
II. AN ALTERNATIVE RULING WOULD H AVE D RAMATIC I MPLICATIONS , I NCLUDING F OR T HE P ROTECTION O F R ELIGIOUS M INORITIES
If petitioners were granted the power to exempt
themselves unilaterally from the City’s policy, that
power would be equally available to all. Because courts
“must not presume” to evaluate “the relative merits of
differing religious claims,” Emp. Div. v. Smith, 494 U.S.

20
872, 887-888 (1990) (quoting United States v. Lee, 455
U.S. 252, 263 n.2 (1982) (Stevens, J., concurring)), there
would be no principled limit on the types of exemptions
that could be sought. Historically, public accommodation laws have prohibited discrimination on the basis of
religion, in order to protect religious minorities from differential treatment. See Heart of Atlanta Motel, Inc. v.
United States, 379 U.S. 241, 284 (1964); see also U.S.
Const. Amend. I. However, if individuals are permitted
to self-exempt from the law’s general requirements on
the basis of religious principle, legal protections against
religious or any other form of discrimination would become empty. Individuals could—invoking a religious
command to oppose other religions—claim a right to discriminate in the fulfillment of government contracts
against those of other faiths, including the very persons
who here seek a right to exclude prospective foster parents on the basis of their sexual orientation. See, e.g.,
Complaint at 2, Maddonna v. U.S. Dep’t of Health & Human Servs. (D.S.C. Dec. 20, 2019) (No. 6:19-cv-3551TMC).
Foreseeably, religious claims of exclusion could be
brought by other private foster care agencies, similarly
positioned to petitioners, that did not wish to assist Muslim or Jewish couples, Christian couples of a different
sect, or interfaith couples. At the very least, creating
such rights of self-exemption from the terms of public
contracts would place a significant burden on government agencies, and this burden could lead such agencies
to carry out more programs without private contractors,
even when doing so would otherwise be preferable and
more efficient. Allowing this substantial uncertainty
would be detrimental to the orderly administration of

21
public programs, but would also be detrimental to, inter
alia, the children in foster care who rely on these programs for their physical and emotional welfare. See pp.
4-10, supra.
The City does not disrespect the religiously motivated views of petitioners simply because it refuses to
allow those views to dictate the content of the City’s own
programs. Especially in a legal system in which the government cannot distinguish among religiously motivated
views, the ability of governments to contract for supplying public services would be seriously undermined if any
individual could, simply by claiming a religious opposition, insist on an exemption from otherwise valid contractual requirements.
CONCLUSION
For the foregoing reasons, the judgment of the
Court of Appeals should be affirmed.
Respectfully submitted.
JUDY PERRY MARTINEZ
AMERICAN BAR ASSOCIATION
DOUGLAS HALLWARD-DRIEMEIER
EMERSON SIEGLE
ALEXANDRA KANDALAFT
MICHAEL SHEEHAN
ROPES & GRAY LLP
AUGUST 2020

